CERTIFICATE OF LENGTH
I certify that this PETITION FOR A WRIT OF CERTIORARI was prepared by
petitioner using Google Docs, which reports that it contains a total of 8,996 words.
I declare under penalty of perjury that the foregoing is true and correct.
DATED: May, 04, 2020, Petitioner sent Petition for Writ of Certiorari overnight by United States
mail on this date to The Supreme Court of United States. Respondents named below:
Bradford W. Ireland, Esq.
Capital Title of Texas and Bill Shaddock, CEO
2520 Carolina, 2nd FL, Tx.77004
7001 Preston Rd. #120, Tx. 75205
Sarah M. Vida, Esq and Clayton R.Hearn, Esq
Kevin G Long;
5307 E. Mockingbird Ln. Suite 685,Tx75206
210 Coronado Street, Tx. 77009
Nichole Baker;
21021 Springbrook Plaza Dr, Suite 150, Tx 77379
Donald Lee McClain and JEM Advisory Group, LLC.;
7000 Lavaca St. Suite 1400, Austin, Tx. 78701-3102
Tanglewood Condominium,;
1616 Fountainview Dr. Tx. 77057
First Residential HOA Company;
1330 Enclave Pkwy, Suite 425, Tx. 77077
Ceasons Holdings, LLC., John Davenport
6008 Gentle Knoll, Tx. 75248;
Michael G. Tapp
12611 Jones Rd. #101, Tx. 77070;
Margaret A. Poissant, Esq.
301 Fannin, Rm 245, Tx 77002;
Respectfully submitted by:

Audrey/L. Kimner, Petitioner, pro se
PO Box 1493
Carmel, CA 93921
843-754-1543
audreykimnerl 0@gmail.com

